<html>
<title> - HEARING ON S. 512, THE NUCLEAR ENERGY INNOVATION AND MODERNIZATION ACT</title>
<body><pre>[Senate Hearing 115-52]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 115-52
 
 HEARING ON S. 512, THE NUCLEAR ENERGY INNOVATION AND MODERNIZATION ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  




         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-151 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     

         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 8, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Inhofe Hon. James M., U.S. Senator from the State of Oklahoma....    10
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    11
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......    11

                               WITNESSES

Korsnick, Maria, President and CEO, Nuclear Energy Institute.....    18
    Prepared statement...........................................    20
Finan, Ashley E., Policy Director, Nuclear Innovation Alliance...    28
    Prepared statement...........................................    30
Back, Tina, Vice President of Nuclear Technologies and Materials, 
  General Atomics................................................    43
    Prepared statement...........................................    45
Lyman, Edwin, Senior Scientist, Union of Concerned Scientists 
  Global Security System.........................................    58
    Prepared statement...........................................    60
Bawden, Allison, Acting Director for Natural Resources and 
  Environment, Government Accountability Office..................    71
    Prepared statement...........................................    73

                          ADDITIONAL MATERIAL

Statements:
    William Paul Goranson, Executive Vice President, Energy Fuels 
      Resources (USA) Inc. on Behalf of the Uranium Producers of 
      America....................................................   127
    Victor M. McCree, Executive Director for Operations United 
      States Nuclear Regulatory Commission.......................   135



 HEARING ON S. 512, THE NUCLEAR ENERGY INNOVATION AND MODERNIZATION ACT

                              ----------                              


                        WEDNESDAY, MARCH 8, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Whitehouse, Merkley, Gillibrand, Booker, Markey, 
Duckworth, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    I am a strong supporter of American nuclear energy. It is a 
vital component of our all-of-the-above American energy plan.
    My home State of Wyoming plays a key role in the American 
nuclear energy supply by producing more uranium than any other 
State.
    Nuclear energy is clean, safe, reliable, and affordable. It 
is also a major boost for the economy. American nuclear plants 
provide thousands of jobs and millions of dollars in benefits 
to local communities. U.S. nuclear power plants have run safely 
for decades, and many will serve our Country for years to come.
    After decades of reliable power from our traditional 
nuclear plants, innovation is taking shape in the nuclear 
industry. Increased private investment in nuclear energy has 
led to advancements in safety, security, and cost. These 
advantages and advancements are exciting.
    The biggest challenges these innovators face, however, are 
delays and costs from regulatory red tape. Many of these delays 
come from trying to navigate a regulatory system that was 
developed around one specific technology, water-cooled 
reactors. Traditional water-cooled reactors have powered our 
Navy and our electricity grid for decades. Today's innovators 
are pursuing very different designs that are using high 
temperature gases, molten salts, and other high tech materials 
to advance the safety, efficiency, and reliability of nuclear 
energy.
    The nuclear regulatory system needs to be updated to enable 
these innovations. That is why I am joined by my colleagues, 
Senators Whitehouse, Inhofe, Booker, Crapo, Fischer, Capito, 
Manchin, Casey, and Duckworth to introduce the Nuclear Energy 
Innovation and Modernization Act. This bipartisan bill seeks to 
modernize the Nuclear Regulatory Commission by providing a 
flexible regulatory framework for licensing advanced nuclear 
reactors.
    The NRC needs a modern regulatory framework that is 
predictable and efficient. Reactor operators from both 
traditional and advanced reactors need timely decisionmaking 
from the NRC. At the same time, the Commission needs to 
maintain the ability to assess a variety of technologies and 
still meet its mission of ensuring safety and security.
    Additionally, our legislation will update the Nuclear 
Regulatory Commission's fee recovery structure. This measure 
will bring increased transparency and accountability to the 
NRC, while improving the Commission's efficiency and 
timeliness.
    This bill will also help preserve the uranium producers who 
are essential to powering this technology. The Energy 
Information Administration reported that uranium production in 
2016 was at its lowest level since 2005.
    One challenge that uranium producers face is the need for 
clear, predictable regulations. Under current law, the EPA sets 
standards of general application and the NRC implements these 
standards. Yet, there is no definition in the Atomic Energy Act 
for ``standards of general application.''
    Paul Goranson, from Energy Fuels Company in Casper, 
Wyoming, submitted written testimony for today's hearing in 
which he states, ``Clearly defining standards of general 
application, without reducing any oversight of the industry, 
would help clarify the roles and responsibilities of the EPA 
and NRC, reduce regulatory conflict, and provide for a more 
effective regulatory framework.''
    I am going to continue to work with other sponsors to 
address this more fully.
    Finally, the bill addresses the Department of Energy's 
mismanagement of the public's stockpile of excess uranium. 
Since 2009, the Department has repeatedly violated its own 
written policy and written law when managing the public's 
excess uranium. As a result, the Department of Energy has 
failed to obtain a fair return on this uranium for American 
taxpayers.
    For example, the Government Accountability Office found 
that the Department of Energy's transfer of excess uranium in 
2012 may have actually cost taxpayers up to $195 million. The 
Department of Energy's mismanagement has also contributed to 
volatility in the uranium market and has led to job losses in 
many States like my home State of Wyoming.
    So I want to thank Senator Ed Markey and his staff for 
helping with these specific provisions. This bipartisan 
legislation will enable the development of innovative reactors 
with bold new technologies.
    America needs to be a leader of nuclear development. We 
need to create an environment where entrepreneurs can flourish 
and create jobs here at home that will revitalize our nuclear 
energy sector. The Nuclear Energy Innovation and Modernization 
Act does just this. This broadly bipartisan bill will 
strengthen American energy independence, foster innovation and 
job creation.
    With that, I would like to turn to the Ranking Member of 
the Committee, Senator Carper.
    [The prepared statement of Senator Barrasso follows:]

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    I yield my time to the Senator from Maryland, Ben Cardin.
    Senator Cardin. I don't want your time, Mr. Ranking Member.
    Senator Carper. Five seconds of my time.
    Senator Cardin. Thank you. Appreciate that.
    As the home State for the NRC's headquarters, I ask consent 
to put in my statement in regards to work force challenges.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
       
    Senator Carper. Thanks so much.
    Welcome, everybody. Delighted to see you again. Thank you 
for taking this time with us.
    My colleagues have heard me tell this story before. I want 
to tell it again; I think it is appropriate.
    Both my boys are, I am proud to say, Eagle Scouts and my 
wife and I are very much involved in their troop. I am a 
retired Navy Captain. I used to take our Boy Scout troop to 
Norfolk Naval Station about every 3 years to spend a weekend 
and to have a chance to climb over the ships, submarines, 
aircraft carriers, sleep in the barracks and even the galley; 
and it was a great adventure for them and, frankly, for all of 
us.
    One day, one Sunday, we went and visited the Teddy 
Roosevelt nuclear power carrier and we had the opportunity, the 
captain of the ship came out to welcome us. We were up on the 
bridge and he addressed 25 scouts, 5 adults, and here is what 
he said. To the boys, he said, boys, when Teddy Roosevelt goes 
to sea, it is 1,000 feet long. The boys went, ooh. He said, 
boys, when the Teddy Roosevelt goes to sea, it is 35 stories 
high. And the boys went, ooh. And he said, boys, when the Teddy 
Roosevelt goes to sea, it has 5,000 sailors onboard. Five 
thousand. And the boys went, ooh. And he said, boys, when the 
Teddy Roosevelt goes to sea, it has 75 different aircraft 
onboard. And the boys went, ooh. And then he finally added, 
and, boys, when the Teddy Roosevelt goes to sea, it refuels 
every 25 years. And the adults went, ooh.
    [Laughter.]
    Senator Carper. And I think that says almost not everything 
that we need to say, but a whole lot about what we need to say.
    I agree very much with what our Chairman has said. A lot of 
people I served with in the Navy actually were on ships and 
submarines and aircraft carriers that were nuclear powered, and 
the safety record is good. We have to continue to focus on that 
not only at sea, but on land as well, and we have.
    Today's hearing is very timely as the nuclear industry 
faces real challenge. The industry is what I describe as a 
crossroads, and which the path the industry decides to take 
will have ramifications on our Country and our citizens, I 
think, for decades to come.
    Let me begin by noting that it is important to examine the 
benefits. There are many. The Chairman has mentioned a number 
of those, of nuclear energy. There are some drawbacks, as well, 
and we need to be honest about those and address them.
    First and foremost, the energy from nuclear power plants 
helps curb our Nation's reliance on dirty fossil fuels and 
reduces air pollution emissions that threaten our health and 
our climate.
    Second, nuclear energy can be a major economic driver. Many 
Americans may be unaware that the United States invented 
nuclear technology. In fact, for many years our Nation led the 
world in nuclear manufacturing, construction, and production. 
The jobs and the economic benefits of this stayed here at home 
for the most part. Unfortunately, that is no longer the case.
    If our Country decides to retake its leadership in nuclear 
energy, I hope we do, and is successful in that endeavor, 
history has shown there will be economic benefits in the form 
of manufacturing and construction jobs and, frankly, operating 
jobs.
    It turns out there is, as we know, two test cases, examples 
in Georgia and South Carolina, real-life tests where the 
construction of two new reactors in each of those States has 
provided thousands of good paying jobs and spurred economic 
development in the surrounding communities.
    Despite all the benefits of nuclear power, I should mention 
also some of the potential adverse consequences of nuclear 
energy. We have seen, from serious incidents like places in 
Fukushima, the damage that nuclear power can cause if the 
proper safety precautions are not in place, not up to date, 
and, most important, not adhered to.
    With nuclear energy, safety has been, and must remain, a 
top priority in the operation of nuclear reactors. I salute 
everyone, whether it is the NRC, the folks in the industry 
themselves, everybody who has been involved to try to make sure 
that that safety record remains unblemished here in this 
Country.
    Unfortunately, the costs of safety precautions, along with 
the costs of construction, operation, and maintenance of 
current nuclear reactors can be expensive, especially when 
compared to the costs of other sources of energy, including 
natural gas. In fact, some of the U.S. reactors are retiring, 
as we know, sooner than expected due to market forces.
    At the same time, our Country's nuclear reactors are 
getting older and will need to be replaced in the years to 
come. Some people believe our Nation's nuclear success story is 
ending. They may be right, but I believe that success story may 
just be getting its second wind. I sure hope so. And if we are 
smart, we will replace our aging nuclear reactors with new 
technology developed in this Country that is safer, that 
produces less spent fuel, and is cheaper to build and to 
operate.
    If we seize this opportunity, seize the day, the U.S. can 
be a leader once again in nuclear energy, reaping the economic 
benefits that flow from that leadership.
    I am not the only one who sees the opportunity. U.S. 
companies have already invested in an estimated, I am told, 
$1.5 billion in next generation nuclear technology, and today 
we will hear directly from General Atomics, a company that is 
investing in a design that is much smaller than current 
reactors, doesn't need water for cooling, is able to use spent 
fuel as a fuel, and is passive in design so that it will shut 
down easily if a significant concern rises.
    As we will hear today, if this design works, this type of 
reactor may well be competitive in today's energy markets. This 
technology, like the dozens of other types of nuclear energy 
technology that are being actively researched, developed, and 
invested in today still face real material and design 
challenges before it is ready to be commercialized.
    I should hasten to add that as companies like General 
Atomics make advances in the technologies, we need to make sure 
that our regulatory framework can keep pace. The NRC is 
considered the world's gold standard of nuclear regulatory 
agencies; however, as science and technology evolves, so must 
the NRC.
    We also need to make sure that the NRC has the resources it 
needs to review these new technologies and ensure our current 
nuclear reactor fleet remains safe. At the same time, we must 
be conscious of how change to the NRC fee structure might 
impact the funds required from taxpayers.
    Finally, it is also important to remember that the current 
Administration wants to cut domestic spending to the bone, 
while increasing funding for defense and homeland security. If 
this Administration is successful, we may ultimately face a 
situation where there are insufficient taxpayer dollars for the 
NRC to work on advanced nuclear energy issues and meet its 
other responsibilities. We need to keep that in mind. I don't 
want to see that happen. I suspect that none of us in this 
Committee do either.
    I believe advances in nuclear energy can help us sustain 
that nurturing environment for job creation, cleaner air for 
our people and our planet. We need that.
    I want to again thank our Chairman and the cosponsors of 
the legislation he has mentioned before us for their work, the 
work of their staffs, and for working closely with my own 
staff. We look forward to building on that working 
relationship.
    I am just happy to be here for a hearing on something we 
agree on. It is a good thing. We are having a series of 
hearings on things we agree on, and maybe we can get some good 
work done for this Country.
    Thank you, Mr. Chairman.
    Senator Inhofe. That is right. That is right.
    Senator Barrasso. Thank you very much, Senator Carper.
    Would any of the original cosponsors like to be recognized? 
Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Well, you know, it is hard for me to accept 
the fact that it was 20 years ago, 19 years ago that I became 
chairman of the subcommittee of this Committee that deals with 
nuclear energy, and I remember when I became chairman they had 
not had an oversight hearing before the NRC in 10 years. Now, 
you can't let a bureaucracy, no matter how wonderful everyone 
is, go without oversight. And, of course, we changed that; we 
became very active at that time.
    I dramatically shortened my opening statement because they 
have already spoken for me. I agree with the comments that were 
made.
    It is important for everyone to understand this is the 
second time around for this, because we introduced this bill 
last year, and last year we had Senators Whitehouse, Booker, 
Crapo, myself, and others working on essentially the same bill 
that we have.
    Now, I have to say confession is good for the soul, and 
Senator Whitehouse and I don't always see eye-to-eye on every 
issue. That is a shocker to a lot of people, but on this issue 
we do. So it shows the broad base of support that we have, and 
I think this is the time that we can get it through. We didn't 
get it through last time. It always surprised a lot of people, 
when I chaired this Committee, how many times Barbara Boxer and 
I agreed, and we got a lot of things done that we couldn't have 
otherwise, if it hadn't been for a close friendship. I could 
never sell her, though, on this one, so she opposed that. This 
time, I think, that is going to happen.
    It bothers me, when I look at countries like China and 
Russia, to see that they are advancing ahead of us at this 
time. New technologies are out there. We know we can reach 
them. And this is what we have to pass to make sure that it 
does happen, so I am very enthusiastic about this. And I agree 
with you, Senator Carper, that it is a lot fun when we can work 
on issues that we agree on, so let's get it done.
    Senator Barrasso. Thank you very much, Senator Inhofe.
    Senator Inhofe. One other comment I want to make. There are 
several members over here on this side that are also on the 
Commerce Committee, so we will be going back and forth, so you 
know why we are doing this at the same time.
    Senator Barrasso. Any other cosponsors like to make a 
statement? Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. I would be delighted to, Chairman. Let 
me first say that I believe I am now in the position, as 
Ranking Member on the subcommittee with Senator Capito, and I 
look forward to working with her to move this legislation 
quickly forward through the Committee, and, of course, with our 
Chairman and Ranking Member.
    I want to particularly thank Senator Inhofe and Senator 
Crapo, who are the two opening cosponsors on the Republican 
side, along with myself and Senator Booker. Senator Fischer is 
here, and I am delighted that she has joined us as a cosponsor 
of this legislation; and, of course, Chairman Barrasso is now a 
cosponsor of this legislation. So I think we have a good 
opportunity to move forward and get it done.
    To me, one of the elements of this that is most attractive 
is the potential down the road for advanced nuclear technology 
to begin to direct its attention to our existing nuclear waste 
stockpile and find a way to turn it from a massive and unbooked 
liability for this Nation into an asset for this Nation. If 
that scientific achievement can be reached, all of our work 
will not have been in vein and very good things will have been 
done.
    Mr. Chairman, I would just like to close by recognizing Dr. 
Ashley Finan, who is here from Jamestown, Rhode Island, a 
particularly beautiful part of our State, and I am very pleased 
to have her here and thank her for her work advising us on this 
legislation.
    Thank you, Chairman. Thank you to the Ranking Member.
    Senator Barrasso. Thank you very much, Senator Whitehouse.
    Thank you, Dr. Finan, for being here as well.
    Senator Fischer.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman, for convening 
this hearing. I am very pleased to be able to cosponsor this 
Act. At a time when we see it is hard for us to agree on 
things, it is nice to be part of a bipartisan effort.
    I am especially pleased with the addition of the new 
uranium recovery provisions that strengthen the bill and 
provide benefits to my State. We have a nuclear plant in the 
southeast corner of Nebraska and we have a uranium mine in our 
western panhandle.
    So this bill will make regulatory reviews more efficient 
and costs more predictable without compromising safety. It also 
enables the licensing of advanced technologies, which can 
revitalize our industry and ensure that nuclear energy is a 
robust energy source for decades to come.
    So I am glad to be here today, Mr. Chairman. I thank you 
again for the hearing. I am eager to hear what the Committee 
will have for consideration of the bill. Thank you.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Whitehouse. May I ask for unanimous consent?
    Senator Barrasso. Senator Whitehouse, yes, please.
    Senator Whitehouse. Senator Lamar Alexander is another 
Senator who is keenly interested in nuclear advancements, and 
he and I wrote together an op-ed at the end of last year, and I 
would like to ask unanimous consent that that editorial piece 
by the two of us be included in the record of this hearing.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. I also ask unanimous consent to submit a 
statement from Senator Crapo, a long-time member of this 
Committee, into the record. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. We will now turn and hear from our 
witnesses. I would like to start with Maria Korsnick, who is 
president and CEO, Nuclear Energy Institute.
    Thank you so much for joining us.

STATEMENT OF MARIA KORSNICK, PRESIDENT AND CEO, NUCLEAR ENERGY 
                           INSTITUTE

    Ms. Korsnick. Thank you very much, Mr. Chairman. Good 
morning. I am Maria Korsnick, President and CEO of the Nuclear 
Energy Institute. And on behalf of the nuclear energy industry 
I want to thank the Committee for considering the Nuclear 
Energy Innovation and Modernization Act. We are very pleased 
that this bill is being reintroduced and are grateful for the 
opportunity to testify about the important matters that it 
brings today.
    Our operating nuclear plants are the backbone of the U.S. 
electric system and a critical part of our Nation's 
infrastructure. Nuclear energy is the largest and most 
efficient source of carbon-free electricity in the United 
States. We currently have 99 reactors in 30 States that produce 
20 percent of our Nation's electricity and approximately 63 
percent of our carbon-free electricity. Nuclear produces 
electricity 24/7, regardless of weather, and with all its fuel 
onsite for 18 to 24 months.
    Nuclear energy facilities are essential to the Nation's 
economy and to the local communities in which they operate. 
Collectively, the nuclear industry contributes about $60 
billion every year to the U.S. economy, supports over 475,000 
jobs, and produces over $12 billion a year in tax revenue, both 
Federal and State.
    I am proud to report that since I last testified before 
this Committee last year, a new reactor has begun to operate in 
Tennessee. And, as you know, an additional four reactors are 
under construction, two in Georgia and two in South Carolina, 
and these are expected to come online in 2019 and 2020. The 
current nuclear fleet is a significant contributor to the 
Nation's infrastructure.
    The newly constructed plants will likely provide valuable 
electricity for 80-plus years, and future nuclear innovations 
in the form of a variety of advanced design reactors are being 
developed to meet the needs of our society well into the next 
century.
    But, for that to happen, the industry must be able to rely 
on a safety-focused, efficient, and technically expert 
regulator. That requires strong and focused leadership from the 
Nuclear Regulatory Commission.
    Because the Senate is responsible for confirming qualified 
candidates to serve on Federal agencies, we wish to emphasize 
the importance of maintaining a five-member NRC board. The work 
of this agency should be conducted as Congress intended, with 
five commissioners. As the Commission currently has two open 
seats and potentially faces the lack of a quorum by the end of 
June, we do urge the Senate to act swiftly on Administration 
nominations.
    We commend the bill's sponsors for taking the NRC's 
untimely, somewhat outdated and unnecessarily costly, 
regulatory process. The need to reform has become more pressing 
as companies are beginning to submit the NRC applications for 
certification of small modular reactors and development of 
advanced non-light water reactors are looking for their 
deployment within the next decade.
    For years, the industry has raised concerns regarding the 
NRC's fee structure, only to be told by the NRC that its hands 
are tied by the current law. This bill makes several long-
overdue changes to the NRC's fee recovery structure. It repeals 
the 90 percent fee recovery requirement and replaces it with a 
more predictable, transparent, and accountable fee recovery 
process that also ensures that the agency continues to be 
sufficiently funded to carry out its important safety mission. 
The legislation would create greater accountability and 
transparency by requiring the NRC to expressly identify annual 
expenditures anticipated for licensing and for other activities 
requested by applicants.
    The legislation also would help drive greater efficiency in 
the NRC's operation. In turn, it would drive down annual fees 
by limiting the corporate support to 28 percent. The industry 
supports this provision and we believe there is an opportunity 
to reduce this percentage even further.
    Complementing the limit on corporate support, the bill 
would cap annual fees for operating power reactors at the 
Fiscal Year 2015 levels. We commend this approach and we 
strongly believe that the cap should apply to all licensees, 
including uranium recovery and other fuel cycle facilities.
    The bill also affirms Congress's view that this Country 
can, and in fact should, be a leader in advanced reactor 
technology. The bill directs the NRC to think differently about 
reactor licensing. It requires them to accommodate light water 
reactors, small modular reactors, and advanced non-light water 
reactors; in short, an all-of-the-above approach.
    This bill directs the NRC to resolve the central issue 
standing in the way of innovation. In sum, we need to start 
planning today if we are going to meet the enormous demand for 
U.S. technology at home and abroad.
    On behalf of the nuclear energy industry, I would like to 
thank Chairman and Senators Whitehouse, Inhofe, Booker, Crapo, 
Fischer, Capito, and Manchin for their commitment to innovation 
and to retain clean, reliable, and constant nuclear 
electricity. We look forward to continuing to work with you and 
your staff as the legislation progresses through the Congress, 
and I encourage you to enact the legislation expeditiously. 
Thank you.
    [The prepared statement of Ms. Korsnick follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Well, thank you very much for your 
thoughtful testimony.
    Dr. Finan.

  STATEMENT OF DR. ASHLEY E. FINAN, POLICY DIRECTOR, NUCLEAR 
                      INNOVATION ALLIANCE

    Ms. Finan. Thank you, Chairman Barrasso, Ranking Member 
Carper, and distinguished members of this Committee. Thank you 
for holding this hearing and for giving me the opportunity to 
testify. My name is Ashley Finan, and I am Policy Director for 
the Nuclear Innovation Alliance, a nonprofit organization 
dedicated to leading advanced nuclear energy innovation.
    The NIA was established by a cross-cutting group of 
innovators, academics, environmental organizations, industry 
groups, and other experts and stakeholders who believe that 
advanced nuclear energy is needed to ensure a better future. 
The world will double or triple its energy demand in 30 years, 
driven by the emergence of a middle class in the developing 
world and the need to bring electricity to 1.4 billion people 
who lack it today. At the same time, many analyses point to the 
pressing need to drastically reduce global carbon emissions if 
we are to avoid the worst impacts of climate change, and clean 
air is essential to human health.
    A more rapid expansion of nuclear power is a vital part of 
the solution. In the United States and elsewhere, dozens of 
innovative startup companies are pioneering advanced nuclear 
designs that offer opportunities for increased safety and 
affordability, resistance to proliferation, and a reduction in 
nuclear waste. These designs can revolutionize the nuclear 
industry and revitalize U.S. exports with products that take 
advantage of the latest manufacturing and competing technology, 
that are competitive in markets across the globe, and that 
exceed the expectations of customers and the public. But the 
transition from design to commercialization and deployment, 
both in the U.S. and globally, has been slow.
    Current NRC regulation confronts the licensing of advanced 
technologies with two major challenges. First, NRC approval 
calls for enormous front-loaded investment during a protracted 
development and licensing phase, without a staged structure to 
provide applicants with clear, early feedback on an agreed 
schedule. Second, current regulation primarily evolved to 
oversee light water reactor technologies. It must be adapted to 
the features and performance characteristics of advanced 
reactors, which rely on substantially different fuels, cooling 
systems, and safety strategies, and use novel operating 
approaches.
    Over the past 3 years, the NIA has been developing 
strategies to facilitate the efficient, cost-effective, and 
predictable licensing of advanced nuclear power plants in the 
U.S. These strategies are based on consultations with nuclear 
innovators, safety experts, former NRC staff and commissioners, 
members of the financial community, and other nuclear industry 
stakeholders. We compiled the results of some of our work into 
a report called Enabling Nuclear Innovation: Strategies for 
Advanced Reactor Licensing, which was issued in April 2016. The 
report has been provided to the Committee and is available to 
the public on the NIA website. It discusses in much greater 
detail the points that I am touching on today.
    To address the LWR-centric nature of the current 
regulations, a more technology-inclusive approach is needed. A 
risk-informed, performance-based licensing approach will allow 
the NRC to review a diverse set of advanced reactor 
technologies. This would incorporate both modern methods of 
risk assessment and traditional deterministic methods to 
provide an exhaustive safety review. The Nuclear Energy 
Innovation and Modernization Act, or NEIMA, provides for the 
NRC to do work in this area without impacting the costs 
incurred to the existing plants.
    To address the investment challenge, the NIA recommends 
that the NRC offer a staged approach, one that would be more 
aligned with private sector development of innovative 
technology using a licensing project plan, topical reports, and 
other existing mechanisms; and one that would offer clear and 
early feedback to investors and developers through an optional 
conceptual design assessment. This approach maintains the rigor 
and high standards of the NRC and facilitates the development 
of safer nuclear technology that produces less waste, or even 
consumes it.
    This approach can be achieved using existing regulatory 
tools at the NRC, with some adjustments on the development of 
additional guidance. The NRC has already begun doing this work, 
and has made considerable progress in the past year, but they 
have done so with extraordinarily limited resources. NEIMA 
authorizes the NRC to do the crucial work to further develop 
and implement this staged licensing process with dedicated 
funding.
    When NEIMA was first introduced in this Committee in 2016, 
the bill was subjected to useful critiques and several concerns 
were raised and addressed. It ultimately passed out of 
Committee with strong bipartisan support. The bill under 
consideration today is stronger for that and I hope that the 
same support will be evident in 2017.
    This is an important bill that will enable the NRC to 
develop the rigorous, technology-inclusive regulatory 
infrastructure to support the review of advanced nuclear energy 
technologies without diluting funds used to regulate operating 
plants. It also allows for immediate adjustments that will 
provide a more efficient, predictable, and effective process. 
The Nuclear Energy Innovation and Modernization Act is needed 
to enable progress in advanced nuclear energy.
    Thank you for this opportunity to testify. I would be 
pleased to respond to any questions you might have today or in 
the future.
    [The prepared statement of Ms. Finan follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. Thank you very much for your testimony, 
Dr. Finan.
    I am glad you could join us today. I would like to next 
turn to Dr. Tina Back, who is Vice President of Nuclear 
Technologies and Materials at General Atomics.
    Welcome.

     STATEMENT OF DR. TINA BACK, VICE PRESIDENT OF NUCLEAR 
          TECHNOLOGIES AND MATERIALS, GENERAL ATOMICS

    Ms. Back. Chairman Barrasso, Ranking Member Carper, thank 
you very much for the invitation to appear here today. I also 
thank the bipartisan group of Senators for introducing the 
Nuclear Energy Innovation Modernization Act, NEIMA, and for 
their interest in advanced nuclear reactors.
    General Atomics is a high technology company that has long 
history of innovation in nuclear energy, which is detailed in 
my written testimony. Our long-term vision is embodied in GA's 
advanced reactor concept, the Energy Multiplier Module, or EM2. 
It has arisen from RD&D, Research, Development, and 
Demonstration, which has informed and shaped our beliefs of 
what nuclear innovation can achieve.
    In the near-term, the vision is brought into sharper focus 
through projects such as Accident Tolerant Fuel, ATF, and Moly 
99. ATF makes existing reactors less subject to a Fukushima-
like event and more economically viable. The Moly 99 project 
establishes a domestic source of a medical isotope. Ultimately, 
both grew out of EM2 research and development and, in return, 
both deepen the skills and understanding needed to make EM2 a 
reality.
    It might be helpful to explain why we believe nuclear power 
is critical for the energy future and the national defense of 
the U.S.
    Nuclear power is the largest source of baseload clean 
energy available to our Nation.
    At present, there are no U.S.-owned commercial vendors of 
nuclear reactors. Furthermore, the supply chain of nuclear 
grade materials and components has either gone offshore or gone 
out of business. This is in stark contrast to vigorous nuclear 
industries in China, Russia, and Korea. Unless the U.S. is able 
to stimulate its near-dormant nuclear industry, we will be one 
of their future customers.
    On the bright side, there is a strong, nascent effort in 
U.S. private industry to innovate nuclear technologies. NEIMA 
will help us do that. There are many concepts that require 
different materials and technologies to advance beyond the 
light water reactors of today, all of which need NRC approval. 
The NRC is an important and necessary agent in ensuring nuclear 
power remains safe.
    If the U.S. is to proceed, it will require the support of 
our Government through regulatory support like that proposed in 
NEIMA and also through financial support of R&D. It may also 
benefit from mechanisms like public-private partnerships to 
foster new generations of nuclear scientists and domestically 
held intellectual property.
    For the U.S. to be a leader in nuclear energy, General 
Atomics believes our Country must do what it does best, bring 
the ingenuity of the people to bear on creating new ways to 
produce nuclear energy safely, cleanly, and at much lower cost.
    So what exactly are nuclear reactors that are advanced? 
Advanced reactors are those that improve over existing reactors 
in the following four core objectives: they must produce 
significantly cheaper and cleaner electricity; be safer; 
produce significantly less waste; and reduce the risk of 
proliferation.
    These seven improvements identified in NEIMA are consistent 
with these core objectives. We believe every worthy advanced 
reactor concept must address these four core objectives 
jointly. It is not sufficient to address one at the expense of 
the other three.
    My written testimony provides details on how EM2 leverages 
engineered ceramic materials and leapfrog technologies to meet 
these four core objectives.
    As with any new reactor design, this one will require 
extensive interactions with the NRC. Ideally, interactions 
would occur early enough to inform the initial design and 
produce a safer reactor design. Then, when applying for a 
license, this early effort would pay off many times over.
    Radically new concepts employing new technologies require 
upfront investments involving some risk. Some investments may 
not pay off, and even those that are successful could require 
at least 10 years to produce any revenue. While General Atomics 
has already invested more than $40 million in EM2, these 
commercial realities make it very difficult to justify early 
costs to engage the NRC.
    If the Committee's objectives are to stimulate development 
of advanced reactors and technologies, then we suggest it would 
be relatively inexpensive to involve NRC in the early phase of 
development for potentially high impact. We suggest the 
Committee authorize the appropriation of $5 million at first, 
growing to $15 million over 5 years, to provide the NRC 
services. To trigger funding, a relatively low cost-share of 3 
percent could be required.
    Thank you for your interest, and I hope that you can all 
come to San Diego and visit our facilities. There you could see 
our science in action and understand why we at GA are so 
optimistic about the future of advanced nuclear reactors. We 
are at the cusp of some significant scientific discoveries that 
are within the reach, with a bit of Government support.
    I would be pleased to respond to any questions.
    [The prepared statement of Ms. Back follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Well, thank you very much, Dr. Back, for 
your thoughtful testimony. We appreciate you being here.
    I would like to next turn to Dr. Edwin Lyman, who is the 
Senior Scientist for the Union of Concerned Scientists Global 
Security System.
    Dr. Lyman, thank you for joining us today.

   STATEMENT OF DR. EDWIN LYMAN, SENIOR SCIENTIST, UNION OF 
          CONCERNED SCIENTISTS GLOBAL SECURITY SYSTEM

    Mr. Lyman. Thank you. Good morning. On behalf of the Union 
of Concerned Scientists, I would like to thank Chairman 
Barrasso, Ranking Member Carper, and the other distinguished 
members of this panel for the opportunity to testify today on 
NEIMA and its potential impacts on nuclear safety and security 
in the future.
    UCS puts rigorous, independent science to work to solve our 
planet's most pressing problems. We are neither pro-nor anti-
nuclear. But we do believe that nuclear power must meet high 
standards of safety and security if it is to be a reliable 
option in the future.
    This Saturday marks the sixth anniversary of March 11, 
2011, the day when a massive earthquake and tsunami in Japan 
triggered the triple core meltdowns at the Fukushima Daiichi 
nuclear plant. We know when the disaster started, but we cannot 
predict when it will end, because its legacy will affect the 
Japanese people for decades to come.
    Today, the direct economic impact is estimated at almost 
$200 billion, approximately 80,000 people remain displaced from 
their homes, contaminated water continues to flow from the site 
into the sea every day, and the interiors of the three damaged 
reactors are so intensively radioactive that even the robots 
sent in to explore are quickly disabled by the radiation.
    The accident had a significant impact on Japan's use of 
nuclear power. It now only has three operating reactors, and it 
pays handsomely for imported natural gas to meet its 
electricity demand. A similar accident in the U.S. would almost 
certainly compromise the future of nuclear power in this 
Country.
    Fukushima serves as a graphic reminder of the consequences 
of complacency. The nuclear industry and its regulators 
seriously underestimated the risk from natural disasters and 
did not adopt safety measures strong enough to mitigate those 
risks, so the urgent need to ensure such a nuclear disaster 
does not happen again provides the context for my remarks 
today.
    UCS testified on an earlier version of this bill last year. 
The current version of the legislation has some changes that we 
believe have improved it, and, as a result of those changes, we 
do not oppose the bill. But neither do we support it, because 
we still find its basic approach problematic from a safety and 
security perspective. We also question the need for the 
legislation. We don't believe it is going to be effective in 
actually facilitating the deployment of advanced reactors.
    One of our main concerns is the promotion of a ``risk-
informed'' licensing strategy. We do not believe that risk-
informed licensing is appropriate for new and novel designs. 
The computer models used to calculate risk need to be 
thoroughly validated by comparison of results with actual plant 
operating experience before you can rely on them to do 
licensing, and such experience is not available for new reactor 
concepts.
    To focus licensing on new reactor designs is to introduce 
an unacceptably high degree of uncertainty in the process. So 
in this light we appreciate that the current version of NEIMA 
requires that NRC develop strategies for implementing risk-
informed licensing only where appropriate. And this phrase 
effectively provides the NRC with full discretion to confine 
the use of risk-informed licensing to those areas where it 
determines it is appropriate, and it is our expectation that 
there will be few, if any, aspects of advanced reactor 
licensing where they will make that determination.
    There is also a question about which designs may clearly 
fall under NEIMA's definition of ``advanced reactor.'' I agree 
with Dr. Back that advanced reactors should improve upon the 
current generation in a whole variety of different ways, and 
that there should not be tradeoffs of one improvement for 
another.
    But, in our assessment, none of the advanced reactor 
designs that are currently under discussion, at least non-light 
water reactors, actually will achieve that. Liquid metal-cooled 
fast reactors, high-temperature gas-cooled reactors, and molten 
salt reactors all introduce new and novel safety and/or 
security issues relative to light water reactors that may 
ultimately outweigh any improvements they provide. And this is 
also true for small modular light water reactors like NuScale.
    For example, deployment of any advanced reactor that 
requires reprocessing and separation of plutonium or other 
weapon-usable materials will increase the risks of nuclear 
terrorism and nuclear proliferation, and that includes any 
reactor that claims they can consume spent fuel for 
electricity. So I would really recommend the Committee look 
deeper into what it means to actually consume spent fuel.
    The Transatomic Power reactor is an example. The company 
promoted the idea that its molten salt reactor could consume 
spent fuel, and actually they had to backtrack recently when it 
turns out their analysis was wrong.
    This isn't to say that TAP is necessarily a failure, but it 
illustrates the development of advanced reactors cannot be 
rushed and that early optimism may well be tempered by later 
results.
    It takes a long time and a lot of money to develop advanced 
nuclear reactors, and a number of studies have demonstrated 
that. NRC licensing is not the chokepoint or the bottleneck in 
that process; it is the need to develop the necessary technical 
basis to convince the regulator that a reactor design is safe. 
And you can't short-circuit that process, so that is the main 
reason why we are concerned about the emphasis of this bill in 
trying to accelerate or bypass the critical safety functions of 
the agency?
    I will conclude there, and I appreciate and welcome your 
questions. I apologize for exceeding my time. Thank you.
    [The prepared statement of Mr. Lyman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Well, thank you very much for being with 
us, Dr. Lyman. Thank you for your testimony.
    I would like to next turn to Allison Bawden, who is the 
Acting Director for Natural Resources and Environment with the 
Government Accountability Office. Thank you very much for 
joining us.

   STATEMENT OF ALLISON BAWDEN, ACTING DIRECTOR FOR NATURAL 
  RESOURCES AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Bawden. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for inviting me to discuss 
GAO's work on the Department of Energy's management of excess 
uranium.
    The Department of Energy regularly undertakes sales and 
transfers of uranium from its excess inventory. This inventory 
largely resulted from years of Government enrichment activities 
prior to 1992 and is considered a national asset.
    DOE has a responsibility to effectively manage the excess 
uranium inventory on behalf of the American people, who paid 
for it in the first place.
    When DOE conducts transactions in uranium, it is legally 
obligated to ensure these transactions will not result in 
adverse material impacts to uranium markets and that it 
receives reasonable compensation for its uranium.
    A portion of DOE's excess uranium inventory is in the form 
of depleted uranium tails, which historically have been 
considered waste. However, under certain market conditions, 
tails may have value. For example, tails can be profitably re-
enriched when the price of natural uranium is high, because the 
re-enrichment bypasses the early stages of the nuclear fuel 
cycle, including mining of uranium ore.
    Today I will discuss findings from GAO's prior work on 
three aspects of DOE's management of its excess uranium 
inventory. I will also comment on how provisions of the Nuclear 
Energy Innovation and Modernization Act address legal concerns 
we have raised.
    First, DOE has contracted with a private firm for market 
impact studies to help it determine whether planned uranium 
transactions will result in adverse material impacts to uranium 
markets. The Secretary of Energy is legally required to make 
these determinations.
    In 2014, we found the DOE could not be assured of the 
quality and reliability of two market impact studies because, 
despite requirements to do so, DOE did not take steps to 
address their technical quality and the studies did not include 
sufficient methodological information to assess the 
reasonableness of their conclusions. Both studies, however, 
concluded that DOE's transactions would not have an adverse 
material impact on domestic uranium markets.
    We recommended that DOE take steps to ensure the quality, 
credibility, and transparency of any future uranium market 
impact studies, but DOE neither agreed nor disagreed with this 
recommendation.
    Second, even though DOE is legally required to receive 
reasonable compensation for its material, in May 2014, we found 
that DOE did not have guidance for valuing tails. We also found 
that DOE has inconsistently valued tails when it has sold or 
transferred them. For example, in 2005, DOE charged a price for 
tails. But in 2010 DOE transferred tails to a company without 
charge, despite an estimated value for the transferred material 
of up to $300 million.
    In May 2014, we recommended that DOE develop consistent and 
transparent valuation methods that maximize the value the 
Government derives and provides predictability for uranium 
markets. DOE disagreed with this recommendation.
    There continues to be commercial interest in purchasing 
DOE's tails, which we last valued in June 2014 at about $1 
billion.
    Third, since 2006, we have concluded that DOE's uranium 
transactions have, in some cases, violated Federal law. Our 
legal opinion is that DOE likely does not have authority to 
sell or transfer tails because of specific prohibitions imposed 
by amendments to the Atomic Energy Act.
    We have suggested that Congress consider clarifying DOE's 
legal authority to sell or transfer tails. Also, in reporting 
on certain transactions where DOE has paid for services with 
uranium, we concluded that DOE's legal authority to conduct 
barters is unclear and that DOE violated the miscellaneous 
receipts statute. This statute requires an official or agent of 
the Government receiving money from any source on the 
Government's behalf to deposit the money into the Treasury.
    We suggested that Congress consider clarifying DOE's 
authority to conduct barters and to retain the proceeds from 
such barters.
    Provisions included in the Nuclear Energy Innovation 
Modernization Act would address the legal concerns GAO has 
raised. The bill clarifies DOE's authority to transact in 
depleted uranium tails and provides DOE with authority to 
barter. The bill does not authorize DOE to retain the proceeds 
from barters.
    The bill also addresses concerns we raised about assuring 
quality for market impact studies by requiring them to undergo 
peer review.
    This concludes my statement, and I look forward to your 
questions.
    [The prepared statement of Ms. Bawden follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Well, thank you very much. I appreciate 
all of you being here. We are going to proceed with questions 
at this time, and I would like to start with you, Ms. Bawden, 
if you would.
    First, I wanted to commend you and commend your team for 
the good work that you have done in bringing to light the 
Department of Energy's mismanagement of the public stockpile of 
excess uranium. I want to thank you also for the technical help 
that you and your team have provided to me and to Senator 
Markey as we drafted these provisions.
    In your testimony, you explain that Federal law requires 
the Department of Energy to assess whether its forthcoming 
sales and transfers of excess uranium would impact the uranium 
market.
    For years, the Department has relied on a contractor to 
assess whether the Department's sales and transfers of excess 
uranium would impact the market, but your team has found that 
the Department has not taken steps to ensure that the 
contractor performs quality analysis of that market.
    In the process, the Department has ignored the terms of its 
own contract and its own information quality guidelines, and I 
think this is critically important.
    On Monday, the Casper Star Tribune in Casper, Wyoming ran a 
front-page story entitled State Uranium Operators Are Facing a 
Global Glut. The State uranium operators facing a global glut.
    We need to know whether and to what extent the Department's 
proposed sale or transfer of excess uranium will hurt America's 
uranium producers. So my question to you is what should the 
Department do to assess the quality of its contractor's work?
    Ms. Bawden. There are many actions DOE could take to ensure 
that it fully understands the basis for its conclusions 
included in its secretarial determinations that uranium 
transactions will not have an adverse material impact on the 
market. First and foremost, we have recommended that DOE take 
steps to technically evaluate the studies for which it 
contracts to ensure the reliability of the conclusions of those 
studies.
    We have also recommended that another way the Department 
could evaluate the quality of those studies is to put them 
through peer review.
    We have also recommended that the studies should include 
sufficient information on their methodology and their 
assumptions so that others can assess the veracity of those 
studies' conclusions.
    Senator Barrasso. Could I just followup? How would this 
bill improve the quality of the market impact analysis that the 
Department prepares for itself or contracts others to prepare 
for it?
    Ms. Bawden. The bill includes provisions that require the 
studies to be subject to peer review, and that is consistent 
with our recommendation to the Department.
    Senator Barrasso. Thank you. Thank you very much.
    Ms. Korsnick, in 2018, my home State of Wyoming is going to 
become an NRC agreement State, which, as you know, allows 
Wyoming to assume responsibility for regulating uranium 
recovery. When that happens, the total number of uranium 
facilities that the NRC oversees is going to shrink from 11 to 
3. So that means that there are only going to be 3 facilities 
left to shoulder all the costs of the NRC Uranium Recovery 
Office.
    You noted in your testimony how the decline in the number 
of NRC licenses increases the fee burden on those licensees who 
are remaining. Do you believe this problem is a result of a 
faulty fee recovery system?
    Ms. Korsnick. Yes, that is a concern for us. It is very 
similar to when plants decommission, as an example, the same 
burden is raised on the other plants that continue to operate. 
So that is why, in this bill, there is a cap structure that is 
established, which we think directly applies to this concern 
and would help ameliorate that effect.
    Senator Barrasso. Terrific. The performance in the report 
and reporting provision in our legislation directs the NRC to 
expressly budget for the funding necessary to complete license 
reviews requested by the applicants and licensees. The bill 
also directs the NRC to establish transparent schedules to 
complete each requested review along the way.
    So would you please describe the benefits of these 
provisions toward improving the timeliness and the 
predictability of the reviews?
    Ms. Korsnick. We think that is very important. Right now, 
the process is much less predictable from a licensee 
perspective in terms of the amount of time that the NRC would 
need to review products, etcetera. So we think that this helps 
improve that transparency and the predictability from a 
licensee perspective. It is a step in the right direction.
    Senator Barrasso. Thank you very much for your comments.
    Senator Carper.
    Senator Carper. Mr. Chairman, I notice a number of the guys 
up here on the dais are wearing red ties and some of the folks 
in the audience are wearing red as well, and today is a day 
where we specially recognize the contributions that women 
continue to make in even greater ways.
    I think Senator Inhofe mentioned earlier today that about 
20 years ago he was the chairman of the subcommittee on Clean 
Air and Nuclear Safety, and held the first oversight hearing, I 
think, for NRC that had been done in maybe 10 years. It has 
been interesting to see the lineup of the witnesses 20 years 
ago. My guess is it looked a little different then.
    We are happy to see all of you, and thank you for your 
contributions and those who you represent in a very important 
way.
    I want to start off and ask my first question. There are a 
lot of things in the legislation that we are here talking about 
that I think commend it to all of us, but what might be one 
thing that each of you would change in the bill? What would be 
maybe one thing you would like to see changed in the 
legislation?
    We will just start right here. Thank you.
    Ms. Korsnick. One thing that we would like to see changed 
from what is?
    Senator Carper. Everything I do I know I can do better. I 
have not written the perfect bill yet, and my guess is this one 
probably is not perfect either. Maybe one thing that you would 
like to see changed as we go forward.
    Ms. Korsnick. I think there are some provisions in the bill 
relative to baffle bolts and some emergency planning zone 
issues that we feel have been addressed and were not 
necessarily needed for the current bill. That would be one 
example that we think that would be something that could be 
removed.
    Senator Carper. All right, thank you.
    Dr. Finan? Do you pronounce your name Finan?
    Ms. Finan. Finan, yes.
    Senator Carper. Good. Thanks.
    Ms. Finan. Thank you.
    Senator Carper. I never want to get to the end of the 
hearing and find out we have been mispronouncing your name for 
the last 2 hours.
    Ms. Finan. OK.
    I think something could be added to make the bill stronger. 
One thing that would be helpful is if the research and test 
reactors were able to recover more than 50 percent of their 
operating costs through providing services like irradiation and 
tests and power and electricity or heat. That would potentially 
make the case for private funding of demonstration projects 
stronger and reduce the amount of Government matching funds 
that might be needed there. So I would suggest that as a 
possible addition.
    Senator Carper. All right, thank you.
    Dr. Back? Not Back. It looks like Back, but is pronounced 
Back.
    Ms. Back. Thank you very much. Yes.
    You know, I would like to stress the fact that innovation 
actually brings advantages that you can't always foresee, but 
one of them in the case of advanced nuclear reactors is to 
reduce the cost and to actually foster innovation. So I would 
like to see, in this bill, maybe a strengthening of the ability 
to look at cost-share from an industry point of view. As I 
pointed out, it takes 10 years or more, potentially, for 
technologies to give some kind of payoff. That is much longer 
than any private company will take on, and so we are not asking 
for a free ride, but a fair look at the cost-share and the 
contribution, especially early in the phase for the NRC 
regulations, would be a huge help to all of the companies that 
are working on advanced reactors.
    Senator Carper. All right, thanks, Dr. Back.
    Dr. Lyman, if you have an idea you would like to share with 
us, please do. One improvement you would like to see made in 
the legislation.
    Mr. Lyman. Thank you for your question. UCS believes that 
the NRC does need regulatory reform, but it would be in the 
direction of strengthening safety and security, rather than 
weakening it. In particular, the post-Fukushima reforms that 
the NRC has enacted do not go as far as we would like. In 
particular, the Commission rejected a recommendation of its own 
task force to reform the regulatory structure to increase the 
defense in depth, that is, extra layers of protection in 
regulations. So, you know, as part of the larger package, we 
would like to see an enhancement of NRC's regulatory framework 
to account for defense in depth in its regulatory decisions in 
a more formal way.
    Senator Carper. All right. Thanks, Dr. Lyman.
    Allison Bawden.
    Ms. Bawden. Thank you.
    Senator Carper. Let me say we so apricate the work that you 
and your colleagues at GAO do for us and applaud your efforts 
on behalf of our Country. Thank you. But go right ahead.
    Ms. Bawden. We appreciate it. Thank you.
    I don't know that I would characterize this as something 
GAO would like to see changed, but we have suggested that the 
Committee could consider using a percentage-based cap in the 
bill for the amount of uranium the Department of Energy is 
authorized to transfer, rather than a hard cap. We have 
suggested that to the Committee. It may provide additional 
flexibility.
    Senator Carper. All right, thanks.
    One last question for Dr. Back. It has been, I think, about 
a year since the Obama administration announced efforts to 
assist the research development and deployment of advanced 
nuclear reactors. Could you just give us a quick update on how 
things are going, please?
    Ms. Back. Sure. I would be happy to do that.
    We have been very appreciative, industry has been very 
appreciative of opportunities that now are available to get 
some grant funding. Those have not been large, but there have 
been some that we have been able to take advantage of, and that 
has helped us develop some of these critical technologies that 
are allowing much higher temperature resistance, superior 
neutron irradiation tolerance; and those kinds of efforts have 
led to beginnings of standards that are being developed to 
treat accident-tolerant fuel, as well as future materials that 
are able to withstand much greater temperatures and much 
greater conditions, harsh conditions in the reactor.
    So those areas we would like to see more of, but we are 
very appreciative of what exists. It has helped in the 
crosscutting, looking across all the reactors. But those 
opportunities are few and far between.
    Senator Carper. All right, thanks.
    I am going to slips out right now. I will be back. We have 
another simultaneous hearing going on in Homeland Security, but 
very much appreciate you being here, your thoughtful testimony, 
and your responses.
    Senator Inhofe.
    [Presiding.] Thank you, Senator Carper.
    Ms. Korsnick, we are in kind of a situation now, and you 
have heard me talk about this before, that the last 10, 15 
years we have seen the workload or proposed workload in 
anticipation of growth in nuclear energy go up and down and up 
and down. Now, it was Reagan that said there is nothing closer 
to life eternal on the face of this earth than a government 
agency once formed. Well, the same thing is true with the 
expansion of an agency. When the workload of this agency looked 
like it was going to be going up, we prepared for that and then 
it didn't happen. And there are a lot of political reasons why 
it didn't happen. I am thankful that I think we have overcome 
those now.
    In the year 2000, the NRC got its work done with 2,800 
people and $470 million. Now, with 3,300 people and twice the 
amount of money, $905 million, it oversees six fewer reactors, 
half as many as the materials, licenses and reviews 
anticipated. The GAO commented on this. They said by 2011, 
however, it had become clear that the projected growth had not 
materialized. NRC's budget and its regulatory fees, however, 
have not declined since that time.
    So what is your thought on that? I know a lot of people on 
this side of the table are thinking, well, the stakeholders are 
going to be paying for this more than just Government. But, 
nonetheless, that is a fact that we have anticipated, growth. 
And, of course, it didn't happen and yet Government just grew. 
What are your thoughts about that?
    Ms. Korsnick. Well, I agree with your sentiments, Senator. 
We do understand why the NRC staffed-up. They did staff-up 
significantly, as you suggest, and if you look at the details 
for the bill, the cap is capping it at a 2015 level, which we 
think is a high watermark, if you will, so more than sufficient 
for the agency.
    Senator Inhofe. Well, I wasn't really referring just to 
this bill. I am just saying that this is history now. This has 
happened. We didn't shrink any when our workload was 
considerably reduced in the past.
    Now, I am concerned about the caps, and that was addressed 
by the Chairman in his questions. And I think it is a good idea 
to go ahead and get on record where we are going to be at that 
time, where we anticipate. Do you think that under 512, that 
the caps are realistic? I want to get on record now and say 
that we are going to be able to do it within those caps?
    Ms. Korsnick. Absolutely. I think that there is clearly 
room for the agency to be more efficient than it is today. They 
have done some work in their Project Aim. I would say this bill 
institutionalizes some of the thinking that they are doing 
under Project Aim, and I think the caps within the bill are 
clearly achievable.
    Senator Inhofe. OK. That is good to hear, and we will get 
that on the record.
    You know, as we watch, I mentioned in my opening statement 
the concern I have over the fact that we are not operating in a 
vacuum, there are other countries that are maybe even passing 
us up. I would like to have any one of the witnesses respond to 
where do you think we are right now with China and Russia.
    Why don't we start with you?
    Ms. Korsnick. I guess I will start with that. I would tell 
you that there are 60 reactors being built around the world 
today, and two-thirds of those reactors are being built by 
Chinese and Russian design, and I think that is a significant 
concern that we, in the United States, need to take a look at 
the leadership level that we want to play in a world 
conversation relative to nuclear. It is not only that we have 
the technology and the best designs; we have the best standards 
on how to operate these reactors. And when you get engaged in 
the conversation about these reactors being operated in other 
countries, those standards and those nonproliferation 
requirements go with it, and that is something that is 
significant, should be very significant to us.
    Senator Inhofe. Yes.
    Anyone else want to comment on that, as to where we are 
with our competition? Yes, ma'am.
    Ms. Back. I would just like to add, also, that in, for 
instance, China, they are pursuing every kind of advanced 
reactor in R&D and hopefully, from their point of view, to a 
demonstration plant, and the challenge with this is that the 
governments, for instance, Japan also, are sponsoring the 
research that is being done. So it is very difficult to compete 
at a fair level.
    Senator Inhofe. Yes, that is a good comment.
    Any other comments?
    Mr. Lyman. Yes, I appreciate the opportunity. I do agree 
with Ms. Korsnick that domestic U.S. standards, including NRC 
regulations, are the gold standard, and that is why we believe 
it is very important to maintain those standards and not engage 
in a race to the bottom. So of Russia and China, you know, 
Russia is the country that brought us Chernobyl, and my 
understanding is that China's own regulatory process, including 
the process for qualifying fuel, is not nearly as rigorous as 
the United States. So I think we need to maintain those 
standards, and that is the best selling point we would have.
    Senator Inhofe. I think that is good. I don't want to race 
to the bottom, either, but I think it is important for us to 
talk about the fact that there is competition out there and 
other countries are doing things more aggressively than we are. 
So I think we are all in agreement on that.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    First, can I say I am delighted that we have been joined by 
Senator Booker, who is my co-lead sponsor on our side.
    Let me ask, first, Ms. Korsnick, is there value to the 
carbon emissions-free nature of nuclear generated power? And, 
if so, are nuclear power plants compensated for that value?
    Ms. Korsnick. There is absolutely value, and, no, they are 
not compensated for it.
    Senator Whitehouse. I consider that to be kind of a market 
deformation. How does that market deformation work out in 
practice in the nuclear market?
    Ms. Korsnick. So the challenge we have today is that the 
marketplace just values electricity. It values the capacity and 
it values the product, but it doesn't value whether or not you 
have a carbon-free nature or if you have any other impact to 
the environment. And as you know, from a clean air energy, as 
we look at nuclear, you know, there are asthmas, issues in 
terms of health for people and there are also impacts on the 
environment, things like acid rain. So nuclear power is very 
environmentally friendly; doesn't produce any of those. In the 
marketplace we have today, that is just simply not something 
that is valued. So many of the States are using individual 
solutions and out-of-market solutions right now that they are 
using to value that, and that is becoming a challenge for the 
marketplace, and I know that is something right now that we are 
working with our members to see what it is that we can do to, 
in effect, come up with a more holistic solution.
    Senator Whitehouse. Well, I look forward to working with 
you. I think Chairman Alexander has a similar concern. And if 
there are ways we can find to compensate safely operating 
nuclear plants for the carbon-free nature of their power, that 
creates, I think, a level playing field for nuclear power, 
which is now disadvantaged by the fact that it gets no benefit 
for that.
    My other question is similarly an accounting question. Very 
often accounting is policy. As I understand it, we don't have a 
liability on the books of the United States for the out-year 
cost of dealing with our stockpiles of nuclear waste. If we 
were a company and we had that liability, we would have to 
report it to our shareholders, and management would take a look 
at that liability and say, oh my gosh, that is a real drag on 
earnings, that is a real out-year risk for our shareholders. We 
better pay attention to that; we have to figure out what to do. 
We might even pay somebody to figure out how to reduce that 
liability, because there would be value in reducing the 
liability.
    When we don't adequately account for the liability we have 
of all the nuclear waste we have stockpiled, then there is no 
economic rationale for spending money to try to move to the 
point we talked about earlier, which is is there a technology 
out there, or is there the potential for a technology out 
there, that could rid us of the liability for our nuclear waste 
stockpile by actually figuring out, through innovation, how to 
turn it from a liability into an asset, and find a way to turn 
it into a safe nuclear fuel.
    Would you comment on the liability accounting of all of 
this and how that acts out in your world?
    Ms. Korsnick. Yes. I guess I would just frame it by saying 
that all of the used fuel is being safely stored today. It is 
not a technology problem; it is a political problem that we 
need to appreciate and make decisions on where we want to 
ultimately store this fuel. And as you heard earlier today, 
what we consider a challenge today, or trash today, or used 
fuel today, in the future I am sure we will look at it as a 
resource. So what you consider a liability today, depending on 
new technology, can quickly become an asset for the future.
    Senator Whitehouse. And last question to Drs. Finan and 
Back, who are technical experts here. Is that a prospect worth 
pursuing?
    Ms. Finan. Absolutely. And many of the innovative companies 
today are pursuing that. So I think we need to be supportive of 
them so that they can achieve that goal.
    Senator Whitehouse. Dr. Back.
    Ms. Back. Yes, I agree. Many people do consider the waste 
at the back end. When we were looking at EM2 and designing the 
reactor, we took that into consideration to be able to use the 
spent nuclear fuel in light water reactors regenerated and 
reformed into a fuel that the EM2 reactor could use. And in 
doing that you are gaining back all of the energy that would 
usually just put stored in waste and just sit there and not be 
reused, so we are not putting more effort into taking new 
natural resources, but we are actually using the waste as fuel.
    Senator Whitehouse. Thank you, Chairman. My time has 
expired.
    Senator Inhofe. Thank you, Senator Whitehouse.
    Senator Rounds. Thank you, Mr. Chairman.
    Ms. Bawden, I would like to followup on what Senator 
Whitehouse was just talking about. In your GAO report you 
actually identify the fact that there are tailings and so forth 
that are the property of the U.S. Government today, and that 
there appears to be a commercially viable alternative to simply 
storing them and that there has been an interest in purchasing 
those tailings. Could you share a little bit about your report 
and what you are finding actually in today's marketplace with 
regard to those tailings?
    Ms. Bawden. Thank you for your correct. The last time we 
valued the Department of Energy's inventory of tails was in 
June 2014, and we put that value at about $1 billion. We have 
reported over the years that sometimes certain types of tails 
may be able to be re-enriched, and when that occurs basically 
the tails are used as the feedstock for enrichment, rather than 
natural uranium that has been converted. That has occurred on 
several occasions, re-enrichment has occurred, and most 
recently the Department of Energy issued a press release 
stating that there is commercial interest in purchasing a 
significant amount of the Department's inventory.
    Senator Rounds. So there has been a private entity which 
has made an inquiry to our Department requesting the 
opportunity to purchase tailings, correct?
    Ms. Bawden. That is correct.
    Senator Rounds. And at the same time we don't have a 
process in place in which we can facilitate the negotiation of 
the sale of that in any type of a regulated manner, is that a 
fair way to put it?
    Ms. Bawden. So we have had a legal opinion in the past that 
says we do not believe the Department of Energy has authority 
to transact in tails. The Department has disagreed with that 
legal opinion, and the bill before us today does address that 
issue.
    Senator Rounds. Thank you. Let me ask another question. In 
your May 2014 report you recommended that for each uranium 
transaction that it conducts, that DOE should publicly identify 
the legal authority that it relies on for that transaction. You 
went on to indicate that there were times in which there had 
been transfers of uranium, a product owned by the Federal 
Government, that had been delivered to a third party that we 
apparently had a contract with and we owed money to. And 
instead of paying the bill with cash, we bartered it out by 
giving them uranium instead, and that they were then allowed to 
sell the uranium and that was our way of completing the 
transaction through DOE.
    Can you talk a little bit about what that does to the 
accounting process and keeping track of where the money goes in 
an asset of the Federal Government that has been converted at 
this point?
    Ms. Bawden. It is confusing. So what we have said in the 
cases of those transactions that we reviewed that we believe 
there was a miscellaneous receipt statute violation, and that 
the Department of Energy should have deposited in the Treasury 
the net proceeds of the sale of that uranium. It did not, and 
that continues to be a legal disagreement between GAO and DOE.
    Senator Rounds. Do you have any idea as to the size of that 
transaction in terms, if we converted it to cash like we would 
normally do if we were going to have a transaction that could 
be followed, what size was that transaction?
    Ms. Bawden. Well, there have been several of those 
transactions. We looked at the first in a legal opinion we 
issued in 2006 and then there were others that we looked at in 
a report in 2011. I don't know the current value of that, but 
we would be happy to look into that for the record.
    Senator Rounds. Would it be fair to say that if a 
department such as DOE wanted additional resources that they 
could utilize, they can sell an asset of the U.S. Government, 
basically fuel, they can sell it to a third party or transact 
it to a third party, rather than paying cash, which would be 
part of their budget, and they then have additional excess cash 
available to do what they want with or to cover other expenses 
as they see fit?
    Ms. Bawden. The Atomic Energy Act and amendments to it does 
authorize DOE to transact in certain types of uranium. But what 
we believe is not allowed is DOE's authority to retain the 
proceeds from those transactions. And in these cases that is 
what we believe DOE has done, and that is why we included an 
opinion that said there was a miscellaneous receipts statute 
violation.
    Senator Rounds. In other words, what they should have done 
is deposited it back with the United States Treasury.
    Ms. Bawden. That is correct. And not having done so, they 
would have supplemented their appropriation.
    Senator Rounds. Are you aware of any other department that 
transacts business like this that is currently allowed to keep 
the resources that we could follow? I know in your 
recommendation you suggested actually that rather than simply 
slapping their hands for doing it, you suggested that we amend 
the laws in place today so that they could do that in the 
future.
    Ms. Bawden. We suggested that the lobby clarified one way 
or the other. There are examples across the Government where 
Federal agencies are allowed to retain proceeds from various 
things, but I personally don't know of any Federal agencies 
that transact in this way.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Ms. Korsnick, before we discuss next generation reactors, I 
have a question about how we can ensure that the current 
nuclear fleet is secure against terrorism. The 2005 Energy 
Policy Act includes a provision which I authored that mandates 
that the Nuclear Regulatory Commission conducts security 
inspections at U.S. nuclear power plants. The reason I built 
that in, obviously, is the terrorist attack on 9/11, where two 
planes were hijacked from Logan Airport that flew into the 
World Trade Center. So my goal was to make nuclear power plants 
more secure.
    The inspections must include force-on-force exercises where 
a mock adversary terrorist force conducts a simulated attack on 
a power plant to probe potential gaps in the plant's security. 
These exercises allow the NRC to ensure that nuclear power 
plants are adequately protected against terrorists or other bad 
actors.
    The alternative, having plant operators run their own 
exercises, would not only violate the law, but it would create 
a clear conflict of interest and undermine public safety.
    In the past, the Nuclear Energy Institute lobbied the 
Nuclear Regulatory Commission to get rid of its force-on-force 
exercises in favor of exercises conducted by the owners of the 
power plant. In effect, this would have nuclear power plant 
operators inspecting themselves.
    In December I wrote to the NRC to explain that implementing 
such a proposal would not only be dangerous, but also illegal. 
In response to my letter, the Nuclear Energy Institute stated 
publicly that it did not support getting rid of the NRC's 
force-on-force exercises.
    But at a recent public meeting, the Nuclear Energy 
Institute appears to have shifted its position yet again and 
now says that it might support getting rid of NRC-run security 
evaluations in favor, instead, of letting the owners of the 
plant do their own inspections.
    Could you clear this up? Which side of that issue is the 
Nuclear Energy Institute on?
    Ms. Korsnick. I can share that we are currently conducting 
these force-on-force exercises. I am familiar with those. I 
know that there has been some work with the industry working 
with the NRC to see if we could do these in a more efficient 
way, rather than the way that they had been conducted.
    Senator Markey. Do you support that the Government ensure 
that it is done independent of the owner of the plant, or do 
you support letting the plant operator do it? Which position do 
you take? There are two different positions here just in the 
last couple of months.
    Ms. Korsnick. What I am familiar with is that it is done 
independently. I will let you know that----
    Senator Markey. Independently of?
    Ms. Korsnick. That there is an independent force that 
conducts these, that the NRC observes this independent force on 
this force-on-force exercise. That is how it is done today. I 
do know that there are folks that are looking at our security 
right now.
    Senator Markey. So you support the continuation of NRC-run 
force-on-force exercises, is that correct?
    Ms. Korsnick. That is correct. That is what we do today. I 
do know that there are people looking----
    Senator Markey. Do you support that position being 
continued?
    Ms. Korsnick. I do support that, but there are folks that 
are looking at it. If, in the future, they come up with a 
recommendation, we will evaluate it, but that is how it is 
currently being done today.
    Senator Markey. Well, the reason that we have the goal of 
having the plant operator not inspect itself is the same reason 
that you don't have take-home exams in school, that not only do 
you take it at home, but then you give yourself your own grade. 
There would be a disproportionate number of A-plusses that 
students would give to themselves for the work which they were 
doing. So you need an independent way of looking at the safety 
issues, especially post-9/11, post-Tsarnaev brothers in Boston, 
as well, on Marathon Monday.
    So I urge you very strongly, Ms. Korsnick, to have the 
Nuclear Energy Institute adopt the position which you did at 
the end of last year, that there should be independent 
inspections to make sure that these plants can withstand a 
terrorist attack, and it is not just done by the plant owners 
themselves, who will want to have, necessarily, a stake in 
lowering the cost that they would have for trying to protect 
these plants.
    So I can't urge you strongly enough that we learn this 
lesson in Boston, on 9/11, and then with the Tsarnaev brothers. 
They are coming; they have plans. Nuclear is at the top of 
their list; nuclear weapons coming in from overseas, nuclear 
power plants in the United States. If they don't have the kind 
of security that protects against a successful terrorist 
attack, then we are going to see them try to penetrate the 
loose standards that some of these power plant owners will put 
in place.
    So I thank you, Mr. Chairman, and I yield back the balance.
    Senator Inhofe. Thank you, Senator Markey.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Ms. Bawden, I would like to followup a little bit on 
Senator Rounds' questioning that he had with you. In your 
testimony, you mention the miscellaneous receipts statute. Can 
you please expand on the purpose of the statute and how it 
protects Congress's power of the purse under the Constitution 
and why the American public should care whether the Department 
of energy violates that law?
    Ms. Bawden. Essentially, the miscellaneous receipts statute 
requires that any money the Government receives be deposited in 
the Treasury. When that doesn't happen, an agency has 
essentially augmented its appropriation or used money that 
Congress didn't give it, and this circumvents Congress's power 
of the purse, which, as you stated, is its constitutional 
responsibility.
    In the cases that we have looked at with respect to uranium 
transactions the Department of Energy has carried out, DOE paid 
for certain services in uranium rather than paying for them 
with appropriated funds, and in our legal opinion did so 
without authority.
    Senator Fischer. So what are the consequences if the 
Department has violated that statute?
    Ms. Bawden. It is difficult to determine the consequences. 
Miscellaneous Receipts Act violations can be resolved if 
Congress were, for example, to retroactively approve what the 
Department did or for the Department of Energy to adjust its 
books to reflect the uranium that it essentially provided as an 
obligation against its budget authority. It has not done either 
of those things. So it is possible, if the Department of Energy 
obligated more money than it was appropriated, that it could be 
viewed as having an Anti-Deficiency Act violation, which does 
carry with it penalties, civil and criminal penalties.
    But we believe that Congress could ask DOE for more 
information about this issue to really try to understand its 
scope. For example, Congress could ask DOE to provide the total 
value of the uranium it has traded and look at that with 
respect to its obligational authority. There are also 
appropriations levers that could be used.
    Senator Fischer. So Congress does have some tools to be 
able to address this.
    Ms. Bawden. Yes.
    Senator Fischer. And do you think they are appropriate at 
this time or do we need to look at augmenting them?
    Ms. Bawden. I haven't looked at that issue.
    Senator Fischer. OK. Thank you.
    Dr. Finan, I understand that there are several advanced 
reactor technologies that need uranium enriched up to 20 
percent, and this is higher than the standard 5 percent 
enrichment currently used in operating reactors. Can you tell 
me more about the situation?
    Ms. Finan. Sure. Thank you for the question, Senator.
    There are many of the advanced reactor companies who will 
need to use enriched uranium that is low enriched, but is 
between 5 and 20 percent, and currently we don't have a 
domestic supply chain for that fuel because there hasn't been a 
demand. So that is essentially the situation. It is possible 
that they could obtain the materials internationally, but that 
is not the preferred option.
    Senator Fischer. So it is not available right now in the 
commercial market?
    Ms. Finan. It is not.
    Senator Fischer. And is the Department of Energy's uranium 
surplus, is that the only source that we have?
    Ms. Finan. It is the only domestic source currently.
    Senator Fischer. Domestic. Which is the preferred method 
that we should be looking at, right?
    Ms. Finan. Right, right. So it would be a very promising 
way to provide a bridge for those early movers to have the fuel 
that they need to do their development work before commercial 
enrichment capacity is established in the U.S.
    Senator Fischer. Thank you very much.
    Ms. Korsnick, to followup on the line of questioning we 
just had here, how long would it take to establish a commercial 
fuel supply with the enrichment necessary to meet the needs of 
the advanced reactors that we are looking at?
    Ms. Korsnick. For that higher enrichment, very much what 
Dr. Finan just said, we would look to the down-blending of the 
highly enriched uranium as sort of a stopgap measure, and we 
would need that until enough of a market develops that there 
would be a commercial opportunity. Once there is investment at 
a commercial level, we are estimating probably in the 
neighborhood of 7 to 10 years, but that is after the decision 
has made to pursue it. So I want to be careful there. It is not 
7 to 10 years after people start needing it; it is after 
somebody has made a commercial commitment to actually pursue 
it. And in the meantime we think down-blending the HEU is the 
best approach.
    Senator Fischer. And it is appropriate that the Department 
would be able to supply that, do you think?
    Ms. Korsnick. It would. I think we need to look at this 
current bill and some caps that were put in place. We would 
think that the caps would not apply to the down-blending.
    Senator Fischer. And in the bill before us, S. 512, it 
directs the NRC to examine the feasibility of extending the 
duration of uranium recovery licenses, and your testimony 
states that you believe 40 years would be appropriate. Can you 
explain why?
    Ms. Korsnick. Yes. It is very commensurate with other 
facilities, we think, the 40-year timeframe. For example, when 
you license a reactor, that comes in a 40-year license. And the 
risk associated is much less with the facilities that we are 
talking about. So we think it is very commensurate with the 
risk that a 40-year license would be very appropriate.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Barrasso.
    [Presiding.] Thank you, Senator Fischer.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman. And let 
me just say, to begin with and echoing the comments of Senator 
Whitehouse, how grateful I am that we have a tremendous 
bipartisan bill together. It really is a testimony to this 
Committee and our ability to work together, and I just want to 
thank Senators Inhofe, as he walks out, and thank you, sir, 
always for your leadership, and Barrasso, Capito, Fischer, as 
well as Senator Duckworth and Manchin, who are now all 
cosponsoring what I think is a very strong bill. In fact, I 
think it is an urgent bill.
    Nuclear energy, right now, is critical, if not vital when 
you look at the larger energy picture in the United States of 
America. Not only is it from the perspective especially from us 
Democrats here, about the challenges, crises we are facing from 
the bleaching of coral reefs to, as was mentioned already, the 
extraordinary high asthma rates in communities like mine. But 
it is also urgent when it comes to the global security 
perspective and the competition we are seeing in nuclear 
energy, and what is happening with those scientists who are 
many ways being developed more so in China or Russia than here 
in the United States.
    Right now we all know that nuclear energy provides a very, 
very critical aspect of our non-carbon-producing power. We did 
the right thing in a very important negotiation in 2015, when 
we extended tax credits for wind energy and solar energy and, 
as a result of having 7 years of predictability, we saw a boom 
in investment in this area, literally creating thousands and 
thousands of more American jobs. And it was the right thing to 
do, especially if you look at, as Senator Whitehouse was 
saying, the impact of carbon and the cost of carbon. But we did 
not include nuclear energy as a result.
    Now, the crisis we have is the fact that if you look at 
wind and solar, we still have nuclear power, baseload, critical 
baseload power, which now compromises about 20 percent of the 
total U.S. electricity generation and more than 60 percent of 
our Nation's carbon-free electricity. It is a powerful 
component. And to have these plants closing down and having us 
move, as a Nation, away from nuclear energy really threatens 
our ability to do carbon-free, to reduce our carbon-producing, 
polluting-producing energy sources.
    So right now in the United States, though, the good news is 
that there are dozens of private sector companies that are 
moving forward and making billions of dollars in investments in 
advanced nuclear designs that could lead to the next generation 
of reactors. I confess, when I first read about advanced 
nuclear, I thought I was reading science fiction and not 
science fact, because these reactors are far more safe to not 
have a lot of the challenges or problems; actually eat the 
spent nuclear fuel of current generation reactors.
    So we really need long-term policies that are going to 
support the existing fleet, but also support the development 
and upscale of advanced nuclear technologies. So that is what 
the urgency is right now.
    I think some of the issues that Senator Markey was bringing 
up are critical. We need to always be doing everything safely. 
But if we are going to move forward and embrace a carbon-free 
future, we are not going to get there quick enough relying on 
solar or wind; nuclear has to be a critical part of it. And, 
again, looking at the critical global security issues and 
competition issues, this is a space that we don't want to give 
the advantage to other nations.
    So I want to thank everyone who joined together on trying 
to design a bipartisan bill. It creates a regulatory regime 
that still focuses on safety, but also focuses on creating a 
regulatory environment for us to lead. And my hope is, I think 
what Senator Whitehouse was hinting at, is we start looking at 
valuing the carbon contributions or, I should say, the non-
carbon contributions of nuclear as well as thinking of ways to 
create tax policy in the way we did with solar and wind in this 
space.
    But very quickly I would like to just put a question to Dr. 
Finan on a concern I have about the first-of-the-kind 
technologies, people that are moving in this advanced nuclear 
space that is really, I think, critical right now and exciting. 
There is an issue for the first-of-the-kind technologies that 
there is a significant design review costs in this space, both 
pre-application and post-application. These costs can be higher 
and less predictable than for subsequent projects. So I want to 
know, Dr. Finan, do you see this as a problem and can you talk 
about how the DOE matching grant program in this bill could 
really help solve that problem?
    Ms. Finan. Yes. Thank you for the question. Many of the 
advanced nuclear companies have cited these review costs as a 
major challenge to their commercialization. I think that the 
grant program will help to address that, as similar programs 
have for the AP 1000 and for the NuScale project.
    Senator Booker. So this is a first step. But looking at the 
future, this really exciting technology in the nuclear space, 
are there things that we can do to expand on the DOE grant 
program in this bill and make it actually more effective, if 
you were sort of advising us?
    Ms. Finan. I think that there are. The current language 
authorizes that that grant program can be used to defray NRC 
fees. You could expand that to allow it to be used for 
applicant costs in preparing and pursuing the applications, as 
has been done in the SMR program; and that might be more 
effective.
    Senator Booker. Thank you very much. And then there are 
clearly these economic reasons, which I have discussed, why we 
want to develop these next generation nuclear technologies, or 
safety reasons why we want to embrace these next generation 
nuclear reactors here in the United States, but can you talk 
about some of the other reasons why this is so critical and 
what risks we face if we don't allow these technologies? What 
is exciting you about it and what are the risks for not moving 
forward?
    Again, I feel like a nerd now when I go around sort of 
talking about the exciting next generation nuclear 
technologies, so I am hoping that you can confirm me so I can 
clip this part right here and my friends don't think I am weird 
for talking about it so much.
    [Laughter.]
    Ms. Finan. Absolutely. Well, the U.S. has been a leader in 
nuclear energy since the dawn of technology, and we are 
actually starting to cede that leadership, as has come up a 
couple times today. Many would argue we have ceded it to Russia 
and to China and others, but we have an opportunity here with 
this future before us to seize that role back and to really 
regain that leadership role so that we have influence on non-
proliferation discussions and on best practices and safety and 
environmental issues globally. And I think that is a key thing 
that we will lose if we don't maintain leadership here.
    Just one other point is that if we don't support our 
domestic innovators, some of these technologies might not be 
developed at all, or they could be supplanted by designs 
developed elsewhere, where they don't necessarily prioritize 
safety the way that we do here.
    Senator Booker. And if you could just clarify for me, in 
terms of, again, Senator Whitehouse is one of the leaders on 
this issue of trying to create a carbon-free future in energy. 
To get there quickly, what is the role that nuclear must play 
if we are going to get there in 10, 15, 20 years?
    Ms. Finan. Nuclear needs to play an enormous role. We have 
a huge increase in energy demand globally that we are going to 
see, and we can't keep those people from having energy. We need 
to have everyone have energy abundance for human health and 
economic growth, and nuclear really is available and ready to 
play a role in providing that energy globally, without any 
carbon emissions or criteria pollutants.
    Senator Booker. And so from India, which is still embracing 
coal power plants left and right, China still starting new coal 
power plants left and right, if we get this technology right, 
if America leads on it in this space, we can really be the 
leaders in proliferating and really helping to stop this 
continued reliance on dirty fuel.
    Ms. Finan. Right. We can bring great opportunity to 
developing countries so that they can have clean, abundant 
power, but also help our economy here at home with abundant 
exports of our technology.
    Senator Booker. And is the safety of advance nuclear excite 
you as much as me? Does it?
    Ms. Finan. Absolutely. I think that one of the biggest 
amazing things about advanced nuclear is the prospect of being 
able to have a plant that does not have impacts outside the 
site boundary in an accident. I think that is a critical 
characteristic for advanced nuclear plants to meet.
    Senator Booker. Thank you very much. Please, more caffeine 
in your next hearing so you can be as jazzed as I am about 
this.
    [Laughter.]
    Senator Booker. And, Dr. Back, really quick, I am excited 
about the work that you and your team are doing over at General 
Atomics. In your testimony, you touched on advanced reactors 
can be safer than existing technologies. Could you just 
elaborate on that safety as the last point? Thank you.
    Ms. Back. Yes. This gets to your excitement about new 
technologies. I mean, we start with a fiber that is a silicon 
carbide fiber. We make it into a weave and then we solidify 
that by depositing silicon carbide in between. That makes 
something that is called a silicon carbide composite that is 
much more resistant to the neutron radiation and also can go to 
more than two times the temperature of metal zircaloy, for 
instance.
    So that fundamentally changes the game for safety because 
you cannot only avoid accidents in areas where you had meltdown 
in Fukushima of the fuel and the fuel rod, but also you reduce 
the generation in hydrogen so you don't have explosions like at 
Fukushima. Also, that allows you to burn the fuel more 
efficiently; you can go to higher temperature. That allows you 
to generate more electricity from the same amount of heat. So, 
for instance, for EM2, we can generate 60 percent more energy 
from the same amount of heat.
    And there are simple things with technology where you can 
borrow and build on other technologies, for instance, moving 
from a steam generator to a gas turbine also jumps you 
enormously from light water reactor plant is sort of bounded by 
33 percent efficiency. When you use gas turbines, you can jump 
up to 53 percent for our particular design. There are other 
designs that use gas turbines, but also make other advantages 
in technologies that allows you to burn fuel more or, in the 
case of safety, which I shouldn't forget, we started EM2 before 
Fukushima happened, but it turns out the silicon carbide 
material that we use is exactly used. It is important for light 
water reactors for the same reasons it is for EM2, which is 
that it is more resistant at temperature and you can avoid 
these problems that happen at Three Mile Island and Fukushima. 
These would not have been problems where you would have to walk 
away from the reactors.
    Senator Booker. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    And thank all the witnesses.
    I would like to address both my questions, really, to Ms. 
Korsnick. In the GAO report on the NRC's fee recovery process, 
one industry stakeholder indicated a lack of understanding as 
to how the fees actually relate to the NRC's budget. You talked 
a lot about this in your written statement. Another noticed a 
mismatch between the activities in the NRC budget and the 
activities the staff actually performs.
    So are the structural problems with the NRC's fee recovery 
a recent development or has the industry had longstanding 
concerns about the fee structures?
    Ms. Korsnick. We have actually had longstanding concerns, 
and I know we have had conversations that date back, I don't 
know, to the early 1990's, I believe, talking about the 
concerns that we expressed. We do think that this bill is a 
step in the right direction in terms of creating more 
transparency and making it much more clear in terms of where 
money is being spent. You mentioned a report. There was also an 
Ernst & Young report that was done in terms of the amount of 
money that the NRC spends on their corporate costs, so through 
the provisions in this bill I think there is more clarity in 
terms of how much money would actually be spent on those 
corporate costs, which is something that is of much interest to 
the industry.
    Senator Capito. I guess a very simple question, when I was 
reading some of the background on this issue, in terms of 
corporate costs, is that another name for administrative fees? 
Do you know what those corporate costs are that they are 
devoting, what is it, 32, 33 percent of their budget to?
    Ms. Korsnick. It is a wide range of things; human 
resources, administrative costs, building fees, for example, 
where the offices are located. There are information systems 
costs, etcetera. So it is a variety.
    Senator Capito. It is a variety. OK.
    So you just mentioned that you think that S. 512 would go a 
long ways toward the transparency. I have the GAO report here, 
which recommends greater transparency. So you are satisfied 
that this is necessary to get that transparency and equity that 
you think would make this fee structure much more fair and 
transparent?
    Ms. Korsnick. Absolutely. Step in the right direction.
    Senator Capito. Well, thank you. S. 512 also directs the 
NRC to expressly identify the funds necessary to work on 
reviews requested by licensees and applicants, and I understand 
that one of the issues is, as plants decommission, it then gets 
the last man standing, fees go up. Could you talk about that a 
little bit?
    Ms. Korsnick. Yes. And that is why the provision in the 
bill relative to the cap is important to us, because, as we 
spoke earlier to your point, as plants decommission, it raises 
the price, if you will, on the plants that remain, so the cap 
structure that is put in in this provision in this bill would 
help ameliorate that effect.
    Senator Capito. Could you say affirmatively that this 
wouldn't compromise any safety or security issues around any of 
the plants?
    Ms. Korsnick. Absolutely. And the reason I would give you 
for that, first of all, the level that it is capped at is the 
2015 level, which is a high watermark in terms of the amount of 
money; and in the same token, if there is some, I will say, 
unforeseen event that for some reason the NRC would feel the 
need to go higher than the cap, there is a provision in the 
bill for them to make that appeal in that case. I would find 
that, obviously, very remote, but there is a provision in the 
bill should that be necessary.
    Senator Capito. Right. Thank you very much.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Harris.
    Senator Harris. Thank you.
    To Ms. Bawden, as you know, the San Onofre Nuclear 
Generating Station in San Diego, California was nationally 
scrutinized, beginning in 2012, for concerns over the 
radioactive leaks and potential fire concerns, and I can tell 
you, living close to that community, many families, many 
children very concerned about the health consequences of what 
happened there. And the Nuclear Regulatory Commission then 
began its investigation, which ultimately led to the 
decommissioning, as you probably know, in 2013, of the station. 
Still, there are concerns that of the almost 3.6 million pounds 
of radioactive nuclear waste that was left behind, that there 
could be significant risk to the 65,000 residents of the San 
Clemente area and its surrounding communities.
    So from the GAO's perspective, has the Nuclear Regulatory 
Commission sufficiently overseen what is going on in that area 
and in particular the work of Southern California Edison and 
its process for handling the nuclear waste?
    Ms. Bawden. I appreciate that question. Unfortunately, I am 
not GAO's expert on NRC regulation. I came today----
    Senator Harris. What have you heard around the office?
    [Laughter.]
    Ms. Bawden. That is a great question. No, I would be happy 
to provide the details on GAO's work for that for the record.
    Senator Harris. OK, I would appreciate that. And as soon as 
possible, because, obviously, it is a big issue for the folks 
who are there.
    Ms. Bawden. Absolutely.
    Senator Harris. In addition, GAO issued four reports 
between 2003 and 2011 which cited the Commission's regulations 
were ``too weak'' in their ability to ensure safety and 
security for the nuclear power plants, and also the concern 
about their ability to monitor the underground pipe leaks and 
their ability to enforce fire protections, all issues that 
apply to many places but, in particular, San Onofre, from my 
perspective.
    Do you think that there are existing regulations that the 
Commission should strengthen or others that the Commission 
should consider before we start having a discussion about 
expediting licenses to advanced nuclear energy projects?
    Ms. Bawden. Again, I very much appreciate your question and 
I will provide a full response to it for the record.
    Senator Harris. OK. And thank you.
    Ms. Back, one of my general concerns about how nuclear 
waste is disposed of is that even if there is some of it that 
remains, it presents a serious challenge and harm to the health 
of the people in that community. Last year, in an interview 
with the San Diego Tribune, you stated that General Atomics' 
new Energy Multiple Module, which you have mentioned, EM2, 
could decrease the amount of nuclear waste by 97 percent, which 
is laudable, compared to a traditional nuclear reactor. So 
although, of course, that is encouraging, what will completely 
eliminate the nuclear waste that is produced?
    Ms. Back. That is a tough challenge, but the way that we 
reduce the amount of waste is we I don't want to say burn, 
because you are not really making a flame, but you are using up 
the fuel, you are consuming the fuel when you start to generate 
heat which then turns into electricity. If you generate at 
higher temperatures and you generate or you run the fuel for a 
longer time--in EM2 we use the fuel for 30 years--then you can 
burn up, if you will, the radioactive elements that are having 
long life radioactive decay, also short life. But if you then 
use that fuel and reconstitute it and then take it through the 
reactor again, then you can burn more. After multiple cycles is 
how you get to a 97 percent decrease.
    Senator Harris. So what about that remaining 3 percent? 
Let's talk about that.
    Ms. Back. So that remaining 3 percent, there is still some 
part you will have to put into a geological disposal. That will 
be much, much smaller volume. If you look at the amount of 
volume from reducing it to 97 percent less, it is hardly 
comparable.
    Senator Harris. So what do you imagine the future will look 
like in terms of our ability, based on the research and the 
science that we are engaged in, what could it possibly look 
like that we would be able to completely eliminate that 
remaining 3 percent? What would need to happen?
    Ms. Back. I think in the end you still have to dispose of 
it as a geological waste. So there will be some small amount 
that you will still have to dispose of.
    Senator Harris. Do you foresee that incrementally we will 
get to the point that we will at some point reduce that number 
to 2 percent and 1 percent, or have you determined that 3 
percent is pretty much the end? Pardon the pun.
    Ms. Back. No, I am never going to second-guess science; 
there are too many discoveries that have happened.
    Senator Harris. Of course.
    Ms. Back. And new technologies that maybe are able to do 
something in the future that we can't imagine now. But today I 
would say that that 3 percent is going to have to go into a 
geological waste. But I think that should be kept in contrast 
with the huge amount of waste that you see generated for other 
power sources. So this is an extremely efficient use, where you 
are taking a large atom, uranium, it is splitting, you are 
getting out energy.
    You know, the footprint of a nuclear reactor, for instance, 
compared to a solar array, which basically we can't get States 
that will give us a large enough amount of surface area because 
it is just not possible; the technology is not able to 
compensate. So replacing that 20 percent of nuclear energy that 
is going to be retired, I personally can't see a way to do that 
right now. So, to me, nuclear has to be a part of the diverse 
mix of energy sources. I think it is also good for the Nation, 
for national security, and this is, I think, something that we, 
as a Country, have to make a decision to invest the money and 
the technology to really be able to make these hurdles.
    I mean, if you look at the comparison of, I have used this 
before, but it is just too simple to see. If you look at your 
telephone from the 1950's and you look at your iPhone today, I 
mean, you could never have imagined that it could grow by leaps 
and bounds there. Nuclear technology has not really 
fundamentally changed since the 1940's and 1950's, when it was 
developed, so I think probably there is not a person in this 
room that couldn't imagine that you could make improvements and 
make them safely. I mean, we value the NRC. We believe that 
they should exist and we believe they should be regulated, and 
we think that advanced reactors can fit within that envelope 
easily. We have to be given a chance and it takes time to prove 
these things out, but that doesn't mean that we shouldn't start 
now.
    Senator Harris. Thank you.
    Senator Barrasso. Thank you very much, Senator Harris.
    Senator Duckworth, thank you for being a cosponsor. If you 
would like to have some additional time to make an opening 
statement as well as the questioning, please feel free.
    Senator Duckworth. Thank you, Mr. Chairman.
    Well, I would like to thank the Chair and Ranking Member 
for convening today's hearing. I also want to commend Chairman 
Barrasso for your leadership in developing this legislation in 
a transparent and bipartisan fashion. I am very proud to 
cosponsor this bill that seeks to modernize how we regulate the 
nuclear industry.
    My constituents get a significant amount of energy from 
nuclear sources. Illinois's 11 reactors, the most of any State, 
generate half of the State's electricity. We also have 3-D 
activated reactors.
    But that is only half of the story. These facilities are 
major job creators in my State. Illinois's nuclear energy 
facilities employ nearly 6,000 high skilled workers and, on 
average, each reactor has an annual payroll of $40 million a 
year, and Illinois facilities pay almost $300 million in State 
and local taxes. These are good jobs, and my mission in the 
Senate is to protect them and the communities that they 
support. So I thank the Chairman for this bill.
    I would like to begin my questioning by just saying a 
lesser known fact, but one that we take special pride in, is 
that Illinois is home to Argon National Laboratory, one of our 
Nation's crown jewels of scientific research and a leader in 
developing nuclear technology. In fact, our current nuclear 
technology is a product of the hard work performed by Argon 
researchers in Illinois.
    The folks there, about 3,300 researchers and scientists, 
are leading the Nation's development of fast reactor and fuel 
recycled technologies, and if Congress fulfills our commitment 
to fund this program, Argon will fulfill its promise to improve 
the affordability of nuclear power, enhance safety and 
security, and minimize radioactive waste, as we have been 
discussing already.
    Dr. Finan, you mentioned in your testimony that startup 
companies are pioneering nuclear designs that offer safer and 
more affordable nuclear technology options. In your view, what 
are the top nuclear innovation benefits of our investment in 
DOE national laboratories, such as those made at Argon, 
particularly when it comes to materials development, advanced 
chemistries, reduced nuclear wastes, and super-computing 
capabilities? Can you talk about some of the things that are 
exciting that are happening right now that really depend on the 
DOE laboratories?
    Ms. Finan. Absolutely. The national labs are really 
invaluable and irreplaceable partners to these nuclear 
innovators. Not only, as you said, do they develop many of the 
technologies that this work is based on now, but these 
innovators are working hand-in-hand with experts at the 
national labs, including Argon and Oak Ridge in Idaho, all of 
those places, to do their materials work and to do their super-
computing. They are using the experimental facilities at those 
labs that aren't available elsewhere, and, really, it is 
enabling them to move forward in a way that the private sector 
couldn't do alone. So the labs play a critical role in all of 
those areas.
    Senator Duckworth. Is there any particular technology that 
is being developed that you find especially exciting that is a 
partnership with private organizations?
    Ms. Finan. I think one of the key technologies being 
developed or worked on and furthered is fast reactor fuels, 
which are really being developed in partnership with the labs 
and the private companies, and that is an important synergy, 
where the fuels really couldn't be developed on their own in 
the private sector.
    Senator Duckworth. Thank you.
    I believe deeply in scientific research and remain 
committed to advance in innovation. I also know that R&D on its 
own will not make the lives of Illinoisans or Americans better 
by itself. In order to fully capitalize on our investments in 
next generation nuclear technology, we have to make sure that 
those jobs associated with them stay at home. So could you 
speak a little bit as to how you think we could ensure that 
U.S. components manufacturers and manufacturing workers, what 
kind of a role do they plan in the development of manufacturing 
of SMRs and other advanced nuclear technologies, the folks who 
are the subs and who are making the components?
    Ms. Finan. Sure. You know, I think it is important to note 
that several U.S. companies are already turning to other 
countries to be their main partners in licensing and 
demonstrating their technologies. And when they do that and go 
that route, they are much more likely to use manufacturing in 
those countries where they are looking for their demonstrations 
to be built. So I think the best way that we can support more 
manufacturing here in the States is to really support the 
innovators' ability to be licensed and to demonstrate their 
technologies here in the U.S., and I think that S. 512 goes a 
long way toward assisting that. We also need to support the 
supply chain here to make sure that the manufacturing is 
available for those technologies.
    Senator Duckworth. Thank you.
    Ms. Korsnick, how can advanced reactors and innovation 
contribute to overcoming the economic challenges that current 
nuclear power plants are facing in States like Illinois?
    Ms. Korsnick. Well, if we were to look ahead in the future, 
you know, 30 or 40 years, I see a grid that is supported by 
advanced nuclear in strong partnership with, say, wind and 
solar for a clean energy future. And by doing that, these 
advanced reactors, they produce more than just the electricity 
that we are all interested in; they are partnering with other 
systems, say, high temperature, steam that maybe another 
technology might need to use. So you can imagine these reactors 
of the future supporting desalinization plants or supporting, 
again, other technologies that are in need of this high 
pressure steam, for example.
    So I see the design very different than just reactors that 
are there and supporting of just an electric grid. It will be 
more of an integrated view.
    And, also, as you look at these advanced reactors, they are 
not all the large reactors that we think of today and benefit 
today from; they are reactors that are a 1 or 2 megawatt size, 
a 50 megawatt size, as well as the large size. So you can then 
see a variety of deployments, right? Think of some remote 
locations out in the middle of the desert or out in the middle 
of, say, Alaska, that maybe you only need a couple of megawatts 
or maybe you want a couple of megawatts that you put together 
that you are now able to have in this remote location. Maybe it 
only needs fuel every 10 to 15 years. Well, that is very 
helpful in some of these remote locations.
    We talked about the fact that the world needs energy. But 
some places in the world are relatively remote. So being able 
to provide this technology in a case where you don't have to 
refuel it very often, also very significant. So we really look 
ahead to see a very dynamic future. Our challenge is what can 
we do today to spur that future to a reality.
    Senator Duckworth. I really see nuclear as a consistent 
source of fuel in that coalition with wind and solar and all of 
the other sources, because it is always there.
    Ms. Korsnick. Absolutely.
    Senator Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    At this time I would like to ask unanimous consent to 
submit for the hearing record three letters in support of the 
bill, one from Mr. Ed Wallace of GNBC Associates, Mr. Jay 
Faison of ClearPath Action, and Mr. Josh Freed of the Third 
Way.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Thanks again to all of you for joining us today and for 
your testimony. I think we feel encouraged on much of what has 
been said.
    Dr. Lyman, in his comments when he was speaking earlier 
today, reminded us of Fukushima and the horror and havoc that 
it has created for a place in Miyagi Prefecture, a place which 
is a sister State of the State of Delaware. I have been there 
before and have a great affection for Miyagi and the people who 
live there.
    I am going to ask a question for the record, but I am going 
to tell you what it is now and we will ask it for the record. 
There are a number of lessons we needed to learn; the Japanese 
needed to learn from Fukushima: What went wrong? Maybe what 
went right, but mostly what went wrong. I am not going to ask 
you to respond right now, but I am going to be asking for the 
record. In terms of what went wrong, what have we learned? What 
are we doing differently hear in this Country? Maybe what more 
do we need to do in order to fully realize and gain from the 
lessons of something very bad that happened?
    I would like to say sometimes out of something bad 
something good comes, and my hope is that certainly is the case 
here.
    The other thing I want to ask, one of our witnesses before 
this Committee once talked about if you could take all the 
spent fuel from nuclear power plants in this Country and stack 
them up on a football field, Mr. Chairman, it would fill up a 
football field and go up into the sky not a couple of miles, 
but it would go up into the sky for some distance. And some of 
you probably know the answer to that question. Does anybody 
know how high it would be today? Anybody know? I don't know.
    Ms. Korsnick. I think the estimate is 20 yards. It is not 
very tall.
    Senator Carper. It is not that far.
    Ms. Korsnick. No. If you used all of your energy personally 
that you got for your entire lifetime, and you got it from 
nuclear power, that waste would fill a 12 ounce can of soda.
    Senator Carper. Thank you.
    Ms. Korsnick. So the volume is not very large.
    Senator Carper. I am encouraged by what Dr. Back told us 
about 97 percent spent fuel being really burned up or consumed.
    Whether it is 20 yards or however high that pile of spent 
fuel rods goes in that football field, do we have the ability 
to derive additional energy from that spent fuel? I know a lot 
of it is in casks and so forth, but is it gone forever and just 
has to sit around for tens of thousands of years, or is there 
some potential to derive energy from it going forward?
    Ms. Korsnick. Oh, we can absolutely. There is about 95 
percent of the energy left in that spent fuel; it has just been 
transitioned to a different isotope, if you will. There is 
technology available around the world today in reprocessing. As 
you may know, France reprocesses fuel.
    Senator Carper. I have been there.
    Ms. Korsnick. And that is how they tap into that additional 
energy, because you then make that available, if you will, for 
a different source. And some of the technologies that these 
folks here are talking about are other ways that they can tap 
into the use of that energy?
    Senator Carper. All right.
    Do you have any closing statement, any briefly closing 
thought that comes to mind before we conclude that might be 
helpful for us? Anybody? Please. Just very brief.
    Mr. Lyman. Yes. I would just like to go back to this issue 
that keeps coming up about consuming spent fuel, about 
reprocessing. You know, I appreciate Senator Booker's 
enthusiasm for these technologies, but I do believe that many 
of them still are in the science fiction stage, and it is not 
clear that throwing a lot more money and time after them is 
going to realize their promise.
    Reprocessing is dangerous, it is dirty, and it is 
expensive. Other countries have had terrible experience with it 
and they are dealing with the legacy. The French company AREVA, 
is practically bankrupt, or it is bankrupt, and a large part of 
that has to do with its reprocessing activity. So reprocessing 
is not a solution for nuclear waste.
    And my concern is that a focus on the pipe dream of trying 
to burn up or consume spent fuel is distracting from developing 
systems where you increase uranium utilization on a once-
through basis, and one example of that was the original 
TerraPower reactor that was being developed by the company Bill 
Gates sponsored. The promise of that type of system is that you 
can achieve the goals that people who claim are for 
reprocessing without having to actually process the spent fuel, 
extract plutonium, and securing the safety liabilities 
associated with that process.
    So our recommendation as the main direction for innovation 
should be to pursue once-through cycles where you can get some 
of the purported benefits of reprocessing without separating 
plutonium, which is a proliferation and terrorism risk. And I 
would really hope that you would look into those issues in your 
reconsideration of whether it is really feasible or practical 
to burn up spent fuel.
    Senator Carper. My time is about over.
    I am going to ask, for the record, I will ask our other 
witnesses to respond to what Dr. Lyman has said. And we 
appreciate you raising those points.
    I will close with this thought. We know climate change is 
real. We only have to look at what has happened this winter on 
the east coast and California, where they got more rain in a 
couple of weeks than they have gotten in years, and stuff like 
that. So it is apparent that it is real.
    The question is what do we do about it. About two-thirds of 
the carbon-free electricity being produced in this Country 
comes from nuclear, and that is a good thing, and we need to 
figure out how to come up with more carbon-free energy. But we 
need, at the same time, to keep in mind that nuclear has a lot 
to offer, and hopefully in the future even more.
    Thanks so much.
    Senator Barrasso. Well, thank you, Senator Carper.
    Thanks, Senator Booker, for staying with us all the time.
    Thank you all for your testimony. It was, I think, very 
beneficial to all of the members of the Committee. Some members 
who weren't able to be here for the whole time may submit 
written questions. I hope you will try to get those answers 
back to us.
    The hearing record will remain open for 2 weeks. Thank you 
for being here. The hearing is adjourned.
    [Whereupon, at 12:05 p.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    
                                 <all>
</pre></body></html>
